                   RESIDENT ABUSE IN NURSING HOMES



                    UNDERSTANDING AND PREVENTNG ABUSE




                            Richard P. Kusserow

                           INSPECTOR GENERAL





OEI- 06-88- 0060
                                                        APRIL 1990

              , '





                              EXECUTIVE SUMMARY
 PURPOSE AND BACKGROUND

The GIG conducted this study to promote a better understanding of abuse in nursing
homes. This is the first of two reports. It examines the nature of abuse and
                                                                             ways to
prevent it. The second report Resident Abuse in Nursing Homes: Resolving Physical
Abuse Complaints examines existing processes for resolving physical abuse
 complaints. Both reports reflect the experiences and perceptions of knowledgeable
 individuals who 1) play some part, directly or indirectly, in the resolution of abuse
 complaints , or 2) have an interest in nursing home or elder
                                                                issues.
Abuse of the elderly is not a new phenomenon. Research findings and
Congressional hearings of the 1970s and
                                          1980s helped to increase. public awareness
of elder abuse. However , little research has focused on the
                                                              issue of abuse of nursing
home residents; certainly, no national survey has been initiated.
                                                                   Existing studies of
abuse focus primarily on family members and caregivers in their homes.
                                                                            Research
indicates from 1 to 10 percent of the non-institutionalized elperly population may be
subject to abuse.



While there are no exact statistics on institutional abuse , any abuse is unacceptable.
Each incident major ' or ' minor,' may be a terrifying experience and a
                                                                           significant
breakdown in the responsibilty of government to assure a safe and
                                                                       caring
environment for elderly and disabled individuals. The price for abuse is measured in
the physical and psychological harm to the resident
                                                      as well as by the economic costs
of treating the abused resident.


METHODOLOGY

The term abuse covers many problem areas for nursing home residents ranging from
environmental conditions needing correction to actual mistreatment of residents.
                                                                                  For
purposes of this study, abuse is defined as mistreatment or neglect of nursing home
residents encompassing the following seven categories:

      Physical abuse
      Misuse of restraints
      Verbal/emotional abuse
      Physical neglect
      Medical neglect
      Verbal/emotional neglect
      Personal property abuse
Since national abuse statitics are not available and states vary in how they define and
collect statistics, we decided to survey knowledgeable individuals involved directly or
indirectly with nursing home care. 
  Specifically, the inspection relied on 232 intervews
with respondents representing State , Federal and national organizations which are
either 1) involved with receiving, investigating and/or resolving nursing home abuse
complaints , or 2) knowledgeable and concerned about nursing home or elder issues.

A minimum of three principal entities were intervewed in each of the 35 sample
States: (1) State Ombudsman , (2) investigator or director of State Medicaid Fraud
Control Unit (MFCU), or legal counterpart where no MFCU exists, and (3) State
nursing home complaint coordinator (the nursing home administrators ' primary
contact for abuse complaints). These entities were selected because our
pre inspection indicated they were the most often involved in nursing home abuse
complaint receipt and resolution in most States.

Respondents , based on their functional expertise and knowledge , answered a wide
range of questions about different aspects of abuse in nursing homes including their
perceptions of the prevalence and severity of the seven abuse categories listed above.
The experiences and perceptions of the participants coupled with a review of State
and Federal policies provide the basis for the findings and recommendations of this
report.


MAJOR FINDINGS

      Nearly all respondents indicate abuse is a problem in nursing homes.

      Respondents differ , however , regarding the severity of the problem. A majority
      of the State oversight agenciesand resident advocates for nursing homes perceive
      abuse as a serious problem , while many nursing home administrators and industry
      representatives perceive the problem as minor.

      Physical neglect , verbal and emotional neglect , and verbal or emotional abuse are
      perceived as the most prevalent forms of abuse.



      Nursing home staff, medical personnel , other patients and family or visitors all
      contribute to abuse. However , aides and orderlies are the primary abusers for all
      categories of abuse except medical neglect.

      Respondents believe nursing home staff lack training to handle some stressful
      situations.

      Most respondents believe staff certification and training will help to deter
      resident abuse.

    Administrative or management factors also contribute to nursing home resident
    abuse (e. , inadequate supervsion of staff, high staff turnover
                                                                    , low staff to
   resident ratios).


RECOMMENDATIONS

Because this inspection indicates abuse may be a problem for
                                                             nursing home
residents , we recommend the following:

         The Health Care Financing Administration (HCF A)
                                                                 should:
                Require , as part of its nurse aide training regulations , ongoing
                training concerning the aging process and mechanisms to cope with
                and avoid confrontational situations. Further , nursing homes should
                be required to document staff training and understanding of abuse
                and reporting responsibilities and procedures for abuse incidents.

                Require , as part of the admission requirements for a new resident
                nursing homes to inform residents about differences between living
                in a nursing home environment vs. living at home , possible problems
                they may encounter, and ways to deal with such problems.

                Require , as part of its conditions of participation for nursing homes
                supervsory and training staff to acquire skills necessary to effectively
                train and supervise paraprofessional and nonprofessional staff.

        The HCFA should further support research concerning        long term care
        policies which promote staff stabilty and provide for
                                                                adequate staff- to­
        patient ratios necessary to control stress and abuse.

        The Administration on Aging (AoA) should collect and disseminate
        information about nursing home practices which avoid stress and abuse
        and promote staff stabilty and adequate supervision.
DEPARTMENTAL COMMENT

This report has been modified to reflect many of the comments received from within
and outside the Department of Health and Human Servces. Comments from the
Assistant Secretary for Planning and Evaluation , the Office of Human Development
Servces , the AoA, and HCFA are included in the appendix to the report. They
generally agreed with our findings and recommendations. The HCFA indicates it has
already done much to accomplish the recommended changes.
                                TABLE OF CONTENTS


                                                                                       Pag
EXECUTE SUMMARY


INTODUCTION

   Purpose

   Background

   Scope and Methodology



FINDINGS

   Nearly all respondents indicate abuse is a problem in nursing homes.

   Respondents differ, however, regarding the severit of the problem. A majorit

   of the State oversight agencies and resident advocates for nursing homes

   perceive abuse as a serious problem, while many nursing home administrators

   and industry representatives perceive the problem as minor.


   Physical neglect, verbal and emotional neglect, and verbal or emotional abuse

   are perceived as the most prevalent forms of abuse.


   Nursing home staff, medical personnel, other patients and family or visitors all

   contribute to abuse. However, aides and orderlies are the primary abusers for

   all categories of abuse except medical neglect.

   Respondents believe nursing home staff lack training to handle some stressful
   situations.

  Most respondents believe staff certification and training wil help to deter
  resident abuse.

  Administrative or management factors also contribute to nursing home resident

  abuse (e. g., inadequate supervision of staff, high staff turnover, low staff to

  resident ratios).


RECOMMENDATIONS

DEPARTMENTAL COMMENTS

APPENDICES
      Appendix A.    National Organization Respondents

      Appendix B.    Tables I-VII: Respondent Perceptions

                     on Abuse Categories as Problems

      Appendix C.    Departmental Comments

      Appendix D.    Public Comments

      Appendix E.    Bibliography

                                  -.. -..-..          -..-




                ACTUAL AND PROJECTED GROWTH OF THE ELDERLY
                           POLATION (65 YEARS OLD)

                                                                           NUMBER (IN MILUONS)

                                                                          PERCEN OF POPULATI




                         20 -..-..-..-..
                         10 -..

                              1970 198    199 200 2010 2020
                                              YEAR &O aR POT1 RES NO. 81            us   CE BlU
NUMBER (IN MILLIONS)
PERCENT OF POULATION


                                           FIGURE 1



              PROJECTION OF THE NURSING HOME POPULATION
                        65 YEAS AND OLER BY AGE GRP

 en 4
                                                                            lEas AND OVER

                                                                                75 - 84

                                                                            065­




 Z 0

            198        1990       20           2010    2020
                                       YER
                                                              "'AI8O AG.-
                                                                     s. 88'M
                                                                  8Y u.         II
                                                                             118..1D
                                                                            AITIONAC

                                           AGUR 2

                                      INTRODUCTION



 PURPOSE

 The OIG conducted this study to promote a better understanding of abuse in nursing
homes. This is the first of two reports. It examines the nature of abuse and
                                                                             ways to
prevent it. The second report Resident Abuse in Nursing Homes: Resolving Physical
Abuse Complaints examines existing processes for resolving physical abuse
 complaints. Both reports reflect the experiences and perceptions of knowledgeable
 individuals who 1) play some part , directly or indirectly, in the resolution of abuse
 complaints , or 2) have an interest in nursing home or elder issues.


 BACKGROUND

Americans are living longer, and the nation s elderly population is growing at an
unprecedented rate , partially as a result of new technologies and medical advances.
There are now 28 miIion people aged 65 or older; by 2030 , they wiI number more
than 60 miIion , or 21. 2 percent of the total population (figure, 1). As individuals live
longer, their need for nursing home care may increase.

While only about five percent of the elderly population are in nursing homes at any
given time , it is likely the nursing home population wiII continue to grow rapidly
the very old segment of the population continues to expand. Projections indicate 3.
miIion elderly individuals will be living in nursing homes by 2030 (figure 2).
                                                                                The
growth in the number of older people experiencing both disabilities and
dependencies may place additional physical and emotional stress on both
                                                                            institutional
and non- institutional   caretakers. Persons advanced in age , limited by mental and/or
physical impairments and dependent on others for their daily care , constitute the
population most vulnerable to abuse.

Abuse of the elderly is not a new phenomenon. Research findings and
Congressional hearings of the 1970s and 1980s have helped to increase public
awareness of elder abuse. Existing studies of abuse have focused primarily on
                                                                              family
members and caregivers in their own homes. Research indicates from 1 to 10
percent of the non- institutionalized elderly may be subjected to abuse.
                                                                           The incidence
of and facts concerning institutional resident abuse are less known.

Doty and Sullvan (1983) note that both Federal and State sources report receipt of
incidents of resident abuse each year. Monk, Kaye , and Litwn (1984) found that
State Long-Term Care Ombudsmen receive many complaints about nursing home
              , '





staff treatment of residents. Further , they note a substantial amount of maltreatment
is never reported.

PiIemer and Moore (1988) provide one random survey designed to assess the scope
and nature of physical and psychological abuse in nursing homes. They found that 36
percent of the sampled nurses and nurse aides had seen at least 1 incident of
physical abuse in the preceding year; 10 percent reported they   had committed 1 or
more physically abusive acts.

While there are no exact statistics on institutional abuse , any abuse is unacceptable.
Each incident major ' or ' minor,' may be a terrifyng experience and a significant
breakdown in the responsibilty of government to assure a safe and caring
environment for elderly and disabled individuals. The price for abuse is measured in
the physical and psychological harm to the resident as well as by the economic costs
of treating the abused resident.

Federal Roles

Three Department of Health and Human Services (HHS) agencies have either direct
or indirect involvement with nursing homes and servces to residents of nursing
homes: the Office of Human Development Servces/Administration on Aging
(OHDS/AoA), the Health Care Financing Administration (HCFA), and the Office
Inspector General (OIG).

Administration on Aging

The Administration on Aging (AoA) of OHDS is the primary Federal agency
responsible for the State Long-Term Care Ombudsman (hereafter referred to as
State Ombudsman) program. It further serves as the visible advocate for the elderly
within HHS. The AoA meets the needs of the elderly mainly through a program of
grants to State Agencies on Aging under Title III of the Older Americans Act
(OAA) (as amended (42 D. C. 3001 et seq. )). Title III also authorizes activities for
the prevention of elder abuse. The Act requires each State Agency on Aging to
establish and operate a State Ombudsman program to receive and review complaints
concerning nursing home residents.

Health Care. Financing Administration



The HCFA administers Medicare and Medicaid program operations. Within HCFA,
the Health Standards and Quality Bureau (HSQ) has oversight responsibilty for
Medicare and Medicaid nursing home standards of care designed in part to ensure
an environment free from abuse. To meet this obligation , HCF A develops and
administers the regulatory requirements for nursing homes participating in either
Medicare or Medicaid , develops training requirements for surveyors who conduct
nursing home inspections , conducts yearly compliance surveys of five percent of those
facilities previously surveyed by the State , and monitors State compliance surveys for
quality assurance.

The HCF A may directly receive complaints of abuse involving nursing home
residents. However , these wil usually be referred to the applicable State agency for
nursing home certification unless the allegation involves an " immediate and serious
threat" to patient health and safety.

Office of Inspector General

Through Public Law (P.L. )
                         94- 505 , enacted in 1976 , the OIG was established as an
independent unit in HHS with the authority to prevent and detect fraud and abuse
in Department programs. The OIG is required to 1) recommend policies for the
detection and prevention of fraud and abuse within programs and operations
administered or financed by the Department and 2) conduct , supervise , or coordinate
investigations related to such fraud and abuse.

Under Section 1128 of the Social Security Act , the OIG was provided authority to
impose sanctions against health care providers convicted of Medicare or Medicaid
offenses or suspended or excluded or otherwise legally or administratively sanctioned
by appropriate State entities. In meeting this statutory authority, the OIG works
with other Federal , State , and local governmental agencies and nongovernmental
entities. As a further part of this authority, the OIG/Office of Investigations (01)
has oversight of and grant certification responsibility for State Medicaid Fraud
Control Units (MFCUs).

The Medicare and Medicaid Patient and Program Protection Act of 1987 amends
titles XI, XVIII , and XIX of the Social Security Act to protect beneficiaries from
unfit health care practitioners. The Act states that if an individual is convicted of
patient abuse in connection with the delivery of a health care item or service
exclusion from the Medicare and Medicaid programs is mandatory.

In September of 1986 ,  the OIG/OI published an " Investigative Guide for the
Detection of Patient Abuse. " The guide was made available to State MFCUs for
training and reference purposes.

Existing Nursing Home Requirements

The Medicare and Medicaid programs traditionally have used a condition of
participation (COP) format to define requirements which must be met by facilties in
order to participate in the programs. This format is based on the principle that each
condition level statement would be a statutory requirement while standard level
statements would be lesser requirements within a condition.
Under current law, a skiIed nursing facility (SNF) must meet COPs to participate in
the Medicare or Medicaid programs;      intermediate care facilties (ICFs) must meet
standards. Current COPs and standards were originally published in 1974. The
SNFs have a single uniform definition which extends the same level of care
requirements to both Medicaid and Medicare programs. The ICF benefit was
intended to allow facilties which did not meet SNF COPs to participate as ICFs and
provide health-related care , not at the skilled level , to Medicaid patients.

Provisions for resident rights are    ambiguous and enforcement is difficult because a
resident's rights and a facility s obligations are sometimes unclear. Recognizing that
a resident s rights , living conditions , and medical care are essential components of the
quality of life in a facilty, HCF A developed outcome oriented survey instruments in
June 1988. The emphasis of current regulations is on process , not outcomes of that
process as is relates to residents. The regulations do not contain any SNF COP or
ICF standard for a resident assessment. Also , there is no quality of care COP
utilzing resident care outcomes , especially negative ones , to assess whether residents
are receiving satisfactory care.

Existing Medicare COPs are located at 42 CFR , Part 405 , Subpart K and implement
Section 1861U) of the Social Security Act.    Current Medicaid standards are in 42
CFR , Part 442, Subparts D , E , and F.

Omnibus Budget Reconcilation Act of 1987 (OBRA ' 87).         P. L. 100- 203


On December 22 , 1987, OBRA ' 87 was enacted. The law includes extensive
revisions to the Medicare/Medicaid statutory requirements for nursing facilities.
Nursing home reform provisions , to be implemented October 1 , 1990, establish
uniform requirements for Medicaid SNFs and ICFs. The law revises the conditions
under which nursing homes may participate in the Medicaid/Medicare programs , the
process for monitoring compliance with law , and the remedies available to Federal
and State agencies in the event of noncompliance. It further expands nursing facilty
resident rights to include freedom from 1) inappropriate use of physical or chemical
restraints and 2) physical or mental abuse or punishment.

The NF (any Medicare SNF or Medicaid facilty which is not an ICF for the
mentally retarded) must inform residents orally and in writing . of their legal rights.
The HCFA draft regulations provide all incidents of abuse be reported to the
nursing home administrator of to any other agency designated by State law.
Residents may fie a complaint concerning abuse or neglect with the State
survey/certification agency. The NF must permit the State Ombudsmen access to the
resident and the resident' s clinical records with the permission of the resident or the
resident s legal representative.
 The NFs wil be required to verify the competency of applicants prior to their
 employment as nurse aides. No nurse aide may be employed for more than four
 months unless the individual has completed State-approved training or successfully
 passed a competency test.  Verification of a nurse aide s competency will be
 strengthened through the required use of a State maintained nurse aide registry.
This registry will certify that the individual has met the required training
requirements and indicate the documented findings , not limited to convictions
                                                                                   , of
resident abuse , neglect , or misappropriation of resident property involving an
individual listed in the registry. If the State determines a nurse aide has been
involved in these activities , the State wil , after notice and reasonable opportunity to
rebut allegations in a hearing, notify the nurse aide and the nurse aide
                                                                            registry.
State and Local Roles

The primary responsibility for designing, operating, and coordinating services          for the
elderly lies with the States.
                                        Several State agencies may be responsible for resolving
nursing home problems including:

           nursing home complaint coordinators
           State Ombudsmen (under the direction of the State Agency on Aging),
           MFCU or other legal authorities where no MFCU is established
           agencies for nursing home certification and licensure
           licensure agencies for medical personnel
           adult protective services , and
           local law enforcement.

The nursing home complaint coordinator is the individual designated to nursing home
administrators as the central State authority to receive complaints of mistreatment or
neglect of nursing home residents. This individual may be in any
                                                                      number of State
agencies or part of a designated complaint unit
                                                 , but is usually a staff member of the
State nursing home survey and certification agency.

The State Agency on Aging, through the State Ombudsman , is required by the OAA:

     1) to establish            procedures for maintaining a State-wide reporting system to
           collect and analyze data related to complaints and incidents;

     2) to monitor the      development and implementation of Federal , State , and local
           laws , regulations , and policies with respect to long term care in the State;

     3) to provide public education on             their activities and long term care issues; and

    4) to promote training and certification of ombudsman staff and volunteers.
The MFCUs are also required to review " complaints alleging abuse or neglect of
patients in health care facilties receiving payments under the State Medicaid plan.
If the initial review indicates substantial potential for criminal prosecution , the unit
shall investigate the complaint or refer it to an appropriate criminal investigative or
prosecutive authority" (Social Security Act , section 1903(q)). At the time of this
inspection , there were MFCUs in 38 States. Those States without a MFCU have
agencies with parallel responsibilities for investigation of fraud and abuse (e.g. , State
Attorney General). 

SCOPE AND METHODOLOGY

At this time , there is no uniform definition of abuse among the States or researchers.
The term abuse may cover many problem areas for nursing home residents ranging
from environmental conditions needing correction to actual mistreatment of residents.
For purposes of this inspection , abuse is defined as mistreatment or neglect of
nursing home residents and encompasses seven categories of abuse , excluding
environmental and financial issues. These seven categories were defined using simple
definitions (figure 3) based on a review of the literature related to abuse (appendix
F).

Since natinal abuse   statistics are not available and States vary in how they define abuse
and collect statitics, we decided to survey knowledgeable inividuals involved directly or
indirectly with nursing home care. 
 Specifically, the inspection relied on 232 intervews
with respondents representing State , national , and Federal organizations which are
either 1) involved with receiving, investigating, and/or resolving abuse complaints
involving nursing home residents , or 2) knowledgeable and concerned about nursing
home or elder issues (e.g. , State oversight agencies for nursing homes or advocates of
the elderly or nursing   homes). (See appendix A and figure 4 for summary
information on respondents sampled. ). These individuals were identified through
contacts with the regional HCFA offices as well as several State agencies (e.g. , State
Ombudsman and single State agency for Medicaid).

A minimum of three principal entities were interviewed in each of 35 States: 1) State
Ombudsman , 2) investigator or director of the State MFCU , or legal counterpart
where no MFCU exists , and 3) State nursing home complaint coordinator (the
nursing home administrators ' primary contact for abuse complaints). These entities
were selected because our pre inspection indicated they were the most often involved
in nursing home abuse complaint receipt and resolution in most States. In 8 of the
35 States , we intervewed additional individuals including nursing home
administrators, nursing home and resident advocates , and medical professional
licensure personnel. Figure 4 shows the 35 States from which respondents were
selected.
Participants , based on their practical expertise and knowledge , answered a wide
range of questions , by telephone or in- person intervews , concerning different aspects
of abuse in nursing homes including the prevalence and severity of the seven abuse
categories. While the experiences and perceptions of the participants provide the
basis for the findings and recommendations of this report, these findings appear
consistent with the information and statistics available from the States and
independent researchers.
                        INSPECTION ABUSE DEFINITIONS

ABUSE :        Mistreatment or neglect                 of nursing home residents.


     Physical Abuse

     Infliction of physical pain or injury.

     Examples include individuals either 1) reacting inappropriately to a situation, such as pushing or slapping a resident
     or 2) intentionally doing bodily harm.



     Misuse of Restraints
     Chemical or physical control of a resident beyond physician s orders or not in
     accordance with accepted medical practice.
     Examples include staff failng to loosen the restraints within adequate time frames or attempting to cope with a
     resident' s behavior by inappropriate use of drugs.



3.   Verbal/Emotional Abuse

     Infliction of mental/emotional suffering.

     Examples include demeaning statements, harassment , threats, humilation or intimidation of the resident.



     Physical Nealect
     Disregard for necessities of daily living.
     Examples include failure to provide necessary food , clothing, clean linens or daily care of the resident' s   necessities
     (e. , brushing a resident' s hair, helping with a resident's bath).




     Medical Nealect

     Lack of care for existing medical problems.
     Examples include ignoring a necessary special diet , not calling a physician when necessary, not being aware of the
     possible negative effects of medications, or not taking action on medical problems.



6.   Verbal Emotional Ne lect

     Creating situations in which esteem is not fostered.

     Examples include not considering a resident' s wishes , restricting contact with family, friends or other residents , or
     more simply, ignoring the residents '    need for verbal and emotional contact.




     Personal Propert Abuse (                                 Goods)
     Illegal or improper use of a resident' s                       propert by another for personal gain.
     Examples include the theft of a resident' s   private television ,   false teeth, clothing or jewelry.




                                                           FIGURE 3

     "..




                                 RESPONDENT SAMPLE





                                                                                  * Statu Vlalted   On81te




                                                                SURVEY RESPONDENTS BY ROLE


                                                       Type of Respondent          Number      % of All
                                                                                             Respondent
                                                      State
                                                       Complaint                                16%
                                                       Coordina tor
              35 States Contacted                      Survey and Certification
                                                       Surveyors
Alabama        Louisiana          New Mexico           MFCUs Or Counterpart                     18%
Alaska         Maryland           New York
Arkansas       Massachusetts      North Dakota *       Professional Medical
                                                       Licensure Boards
California     Michigan           Ohio
Colorado       Minnesota          Oklahoma *           Ombudsman
Connecticut    Mississippi        Pennsylvania                                                  16%
Florida        Missouri *         South Carolina *     Resident Advocacy
Georgia        Montana *          Texas                Organizations
Idaho *        Nebraska *         Washington
Indiana        Nevada *           Wisconsin            Nursing Home                             13%
Illnois        New Hampshire      Wyoming *            Industry
Kansas *       New .Jersey
. States with no Medicaid Fraud Control Unit          National Organizations
                                                       Consumer. Industry and
                                                       Local Law Enforcement

                                                      Federal
                                                        HCFA
                                                        OIG




                                                FIGURE 4

                                   ......
                                    .......,....~~~~
                                   ...".
                                   '''..        ....
                                                ...
                                              ... ...
                                            .......
                                            .....     ".'
                                                   ."'"
                                                      '"
                                                    ",."............
                                                     .....
                                                       .,,",....
                                                    .. ,, ...
                                              ... . ""           ...  "..'..
                                                                   ....
                                                                 . .'
                                                           . ...""'       . ... ",..
                                                                   , ,"."..
                                                                 ","..  ".,,",
                                                                        ""'     ,",....
                                                                                     ....
                                                                               '".......
                                                                         . , . "..
                                                                    .......              ......
                                                                                       .......
                                                                                          ...
                                                                                   . ... .....
                                                                               .....      . ....
                                                                                            ....  ... .......
                                                                                           .... .......
                                                                                                   .........
                                                                                                ........
                                                                                                . ..........
                                                                                          .......
                                                                                          ...                '.. ............
                                                                                                           .....
                                                                                                          .....
                                                                                                            ....
                                                                                              ..................
                                                                                               .... ... ..
                                                                                                        ....
                                                                                                    .....              . ~~~~~
                                                                                                                      .......
                                                                                                                       ......
                                                                                                             ..... .......
                                                                                                          " ....'               .........
                                                                                                                              .....
                                                                                                                               ....
                                                                                                                       ..........
                                                                                                                    .....   .. .. "".'...'"  ...."
                                                                                                                                      ..........
                                                                                                                                       ,...,,",
                                                                                                                                   ............
                                                                                                                                      ."    ."'
                                                                                                                                           ,".




                                                                                   FINDINGS


Near         all   resoo                           cae            abuse is                    a prob                                  nursinQ homes.

In each of the seven abuse categories defined for this study, 95 percent or more of
the respondents indicate abuse is a problem for nursing home residents.
Additionally, for every abuse category, more respondents believe it is worsening
rather than improving. Respondent perceptions of increasing abuse appear to be
supported by statistics from several States. Eleven States responded to our request
for abuse reports and/or complaints which occurred during 1987 and 1988 or 1988
and 1989. Eight States reported increased abuse statistics , while two reported no
increase , and only one reported a decrease.

                                                           '" n. ...."...
                                       Perceht. Chaljg                                                  P8rted,il?q
                                                                        . .. n.





                                             ..M
                                                            :Zj........................




                                                         $hiQQtgQ..
                                                                                               ill
                                                S6lih                   afqnQ
                                               Old h6hia,/.....
                                                Mi9hi9?h


                                                                   it
                                                Neyad.((
                                                NewVotk\




These States reported receipt of                                              331 complaints 
                           or reports of abuse during    1988.


Respondent difer. however. reQardinQ the severi of the problem. A maiori of
the Ste oversiQht aQees and resident advoces for nursinQ homes perceive
abuse     serious problem. while many nursinQ home administators and indust
            as a

represntes percee th problem                                                               as minor.



Although an of the seven categories of abuse are seen as problems for residents
respondents perceive varyng degrees of severity (major , moderate , minor) for each
category. Figure 5 shows these varyng respondent perceptions as to problem
severity. There is relative consistency among four main respondent types (State
Oversight agencies and resident advocates - MFCU, Survey and Certification
          .:




 Complaint Coordinator and Ombudsman) while the nursing home industry
 respondents consistently report lower problem severity. Differences between the
 respondent views on problem severity may be the result of 1) job    function , 2) more
 direct versus indirect contact with the residents or the provider community, or
 3) more knowledge or understanding of the problems. See appendix B for further
 respondent perceptions concerning the seven abuse categories.


          NURSING HOME INDUSTRY RESPONDENTS LESS OFTEN PERCEIVE ABUSE

             AS A SERIOUS PROBLEM THAN DO OTHER RESPONDENT TYPES



                                                             ABUSE CATEGORY
                                                           (! PHYSICAL ABUSf

      Wil
      0.0                                                 (g MISUSE OF RESTRAINTB
     ?-o
     f- 2                                                    VfRBAL/fMOTIONAL ABUSE
     f- --                                                   PHYBICAL NEGLECT


     0:(                                                     IIIDICAL NfGLfCT

     o W                                                  l! VERBAL/EMOTIONAL NEGLECT

     U)
     0. .: -­


     il(/ 0
                                                          lZ PERBONAL PROPfRlY ABUSf
     a:
     LL W 0.
     o(/                                                    RESPONDENT TYPE
     f-
                                                             STATf MfDICAID PRAUD

     il .:                                                    CONTROL UNIT (MFCU)
     U CD

     ff                                                      BTATf SURVfY AHD
     0. I-                                                    CERTIFICATION UNIT


                                                             STATf COMPLAINT COORDINATOR


                                                             STATE OMBUDSMAN


                                                             NURSING HOME INDUSTRY
                                                               (NURINO HOME ADMINIBTRATORS
                                                               AHD INDUSTRV ADVOCATES)
                        ABUSE CATEGORY



                                        FIGURE 5

As is the case with perceptions of the severity of abuse categories , nursing home
industry respondents often have a different view of the trend of abuse categories
than do other tyes of respondents. As figure 6 shows
                                                     ,     nursing home industry
respondents tyically perceive physical abuse , physical neglect , misuse of restraints
and medical neglect as improving or staying the same.

On the other hand , State Ombudsmen and complaint coordinators tyically see
                                                                                 these
problems as worsening or staying the same for nursing home residents. An
                                                                             average
of 49 percent of complaint coordinators and 41 percent of State Ombudsmen
                                                                               believe
resident abuse problems are worsening. In contrast , 20 percent of the nursing home
industry respondents see abuse problems as worsening.
                                                                                                   ::'




                          RESPONDENT PERCEPTIONS OF ABUSE TRENDS:

                   IS ABUSE IMPROVING, STAYING THE SAME OR GETTING WORSE

                                FOR NURSING HOME RESIDENTS?




                                PHYSICAL                                        MISUSE OF                                 VERBAL/EMOTIONAL
                                 ABUSE                                         RESTRAINTS                                      ABUSE




                                                 46%                                         48'1



                                                                                                                                               19%




                                                 11".1


                                  30% 27% 26'1
                           39'1
                                                                              39% 37%                                           38%
                    49%
                                                                                                              44%

                                                                        54%                                               54% 47%



      PHYSICAL                                            MEDICAL                           VERBAL/EMOTIONAL                                 PERSONAL PROPERTY
      NEGLECT                                             NEGLECT                               NEGLECT                                              ABUSE




                         43'1




                                                                                                                          21%
                   32%                                                                                              32%
          42%40%                                                                                         39'1 3B%
                                                                                            44% 50'1
54% 56%




                                                                                  KEY
                                                                                                         PERCENT OF
                                             TYPES OF RESPONDENTS
                                                                                                         RESPONDENTS
                                                                                                            SA VING

                                                                                                   " ABUSE IS IMPROVING
                                                  eOI/PLAINT COORD.
                                                             (STATE)                                      (UPPER BARS)
                                                  ST ATE Ol/BUDSI/AN

                                                    ALL RESPONDENTS                                      ABUSE IS STAYING
                                                                                                             THE SAME
                                                       STATE SURVEYOR
                                                                                                           (MIDDLE BAR)
                                                          STATE I/FeU
                                                                                                     ABUSE IS WORSENING
                                                          NH INDUSTRY                         \l
                                                                                                          (LOWER BARS)




                                                                              FIGURE 6

Physical nealec. verbal and emoti        ec. and       verbal      or emot.Q abuse are
perceived as the most Dreva     orms of abuse.
To gain an indication of the order of occurrence of the seven abuse problems
respondents were asked to rank the abuse categories in order of prevalence.
7 arrays the median ranks according to prevalence. The problems at each Figure
                                                                              level were
ranked about equal (no discernible difference based on the median)
                                                                       in frequency by
respondents. Because prevalence is . a factor in assessing the severity of a problem
(major , moderate , minor , or no problem), the most prevalent problems are often
believed to be the most serious for residents.

                     RESPONDENT PERCEPTIONS OF RELATIVE
                         PREVALENCE OF ABUSE CATEGORIES




                                                      NURSING HOME INDUSTRY RESPONDENTS
                                                         AGREE WITH THE RANKING ABOVE
                                                          EXCEPT FOR PHYSICAL NEGLECT
            SOURCE: RESPONDENTS FROM                    AND PROPERTY ABUSE. PROPERTY

                    ON81TE 8T A TE8                    ABUSE IS A LEVEL I PROBLEM WHILE
                                                         PHYSICAL NEGLECT IS A LEVEL 3
                                                                   PROBLEM.




                                       FIGURE 7
              ...........
              ......"
               '''''      ~~~
               ... ......,"
               ....   ....
                       ......   .."'"
                           ...........
                            .. ....
                           ......
                     ............
                      ......,'...
                         ...       ....
                      "".-....,-......,... ".....
                                     ........
                                          ....
                                   ......,...
                                      .......
                                .........."
                                .....  ....... ....
                                                 . .. ......       ,. ."...'..
                                                             .",. ...
                                                          .",..
                                                           ....    ...   ........ " ....."
                                                                          ..........".,,"
                                                                             .........
                                                                             ...
                                                                          , ,.    ....       ...
                                                                                              .. ........
                                                                                      ' ........
                                                                                             ....
                                                                                  ......,.,.".....
                                                                                              ...           .... .......... .....
                                                                                                      ....................  ...,"".,,"........
                                                                                                                                   " . ....'
..~~~
                                                                                                                                           .........
                                                                                                                                               " ,.,'",,,,.,.","...
                                                                                                                                                  .......    ".....
                                                                                                                                                             ........
                                                                                                                                                               ' '" . ...
                                                                                                                                                                      ' .. """","  .. ..
                                                                                                                                                                           ....." .....
                                                                                                                                                                           ..................
                                                                                                                                                                                         ,..,.......
                                                                                                                                                                                               '......
                                                                                                                                                                                             .........
                                                                                                                                                                                                 '
                                                                                                                                                                                             ''''''''''.'...."
                                                                                                                                                                                                       "




Since State nursing home abuse reporting laws tyically separate resident abuse into
the broad categories of physical abuse and neglect of care , many State agencies
designated to receive and investigate complaints were not able to provide statistics
according to the specific abuse definitions used for this study. Five States provided
statistics of reports/complaints based upon the broad categories of physical abuse and
neglect. Three of the five States report neglect was the most common abuse
reported in 1988 while two States report physical abuse as the most often reported.
The percentage by State and tye of abuse is as follows:



                                                                                                    ... ..... ... .. ... ..... .. n
                                                                   rcent                                                         rceht                                                     dse
                                                                                                                                         . n. .... ..
                  Miont36                                                                                                                    17%/
                  M;:achlisetts..
                  NeW'((jrk
                                                                                                                                             9?%L
                 Kansas)...




Nursing home staf. medica personnel. other paent and familv or visitors all
contbute to abuse. However. aides and orderlies are the primary abusers for all
caegories of abus except medical nealec.

Nurse aides and orderlies have the principal responsibilty for the daily care of
nursing home residents. As the primary caregiver to nursing home residents , it is not
surprising most respondents , regardless of the tye of respondent , say nursing home
staff (specifically, direct care staff - aides and orderlies) are responsible for most
incidents of abuse except medical neglect. As seen in figure 8 , a significant number
of respondents believe medical personnel , other patients and family     or visitors 
 also
may be primary abusers of nursing home residents in one or more categories of
abuse.
          PRIMARY ABUSER OF NURSING HOME RESIDENTS

                 ACCORDING TO RESPONDENTS


            ABUSER         NURSING        MEDICAL
                            HOME                          OTHER      FAMILY OR
                            STAFF        PERSONNEL       PATIENTS     VISITORS        NURSING
  II PROBLEM                                                                           HOME
                                                                                       STAFF
 PHYSICAL ABUSE
                                                3 %        17 %          3 %         ALL STAFF
                                                                                     EXCLUDING
 MISUSE OF                  (56 o/                                                   RNS. L VNS
 RESTRAINTS                                 48 %            1%           2 %        AND DOCTORS
 VERBAL/EMOTIONAL                               7 %
 ABUSE                                                      13 %        10 %

 PHYSICAL NEGLECT            88             15 %            0 %          3 %          MEDICAL
                                                                                    PERSONNEL
 MEDICAL NEGLECT            25 %           (0               1%           3 %         LICENSED
                                                                                    NURSES AND
                                                                                    PHYSICIANS
 VERBAL/EMOTIONAL
 NEGLECT                    84 %                6 %         2 %         21 %
 PERSONAL PROPERTY
 ABUSE                                          1%         18 %         15 %


RESPONDENTS = 206                               ABUSER OF NURSING HOME RESIDENTS
                              OPRIMARY
                                     TOT AL PERCENT MAY EXCEED 100 PERCENT AS SOME RESPONDENTS
                                     GAVE MORE THAN ONE PRIMARY ABUSER IN A CATEGORY.




Graph Interpretation: For example , in the case of physical abuse, 89 percent of respondents
                      reported that nursing home staff are the primary abusers of nursing home
                      residents.

                                            FIGURE 8


As indicated in figure 9 , statistics from New York clearly support the finding that
most nursing home abuse complaints can be attributed to nursing home aides and
orderlies.
                                    ",.    :;:.-.......--
                             !!.===:' - .. .....   ::' . -...-.--
                                                :';':'




               Charges of Abuse by Title of Accused
                                 New York' s Experience for 1988

 Title of Accused
 Nurse Aide/Orderly     w ::"E
                                                     :0f:'     7':'   595
                                                                                        1.   20   Number of Charge

                                                                                  962             Substantiated
                                                                                                  Charges
                                                             442


            Physician
 Other Non- licensed.   2b   1





       Administrator 6


                Other f:f
              Family




                                 200          400              600          800 100 1200 1400
                                          Number of Charges
Reports from the State Department of Health

Bureau of Longterm Care Services



                                                                FIGURE 9

Respondent believe nursing home staff lack training to handle some stessl
sitatons.
Many factors contribute to the potential abuse of nursing home residents by staff.
Figure 10 summarizes some of the factors which respondents believe contribute to
abuse.

Direct care nursing home staff frequently must cope with stressful situations. Many
respondents indicate staff are inadequately trained to deal with the physical
emotional , and psychological aspects of caring for the elderly and disabled. This may
result in abuse as an immediate response to a stressful or confrontational situation.
                MANY FACTORS CONTRIBUTE TO ABUSE
                      BY NURSING HOME STAFF



                                           Low Staff
                                                 Ra tios
                            High                           Inadequa te
                           Stress                          Supervision
                                                            of Staff



          Lack of                                                        Lack of
               Skills                                                    Empa thy
          Training                                                       for Elderly




    Cultural                                                                    Staff
  Differences                                                                  Personal
                                                                               Problems



         High Staff                                                         More
          Turnover                                                         Severely
                                                                         "' Residents


                            Job
                        Frustr a tion                      Low Wages

                                        Abusive or
                                        Belligerent
                                            Patient
SOURCE: SURVEY RESPONDENTS



                                        FIGURE
                               ....................................
                          .. ......................................
                             . ,        ...........................
                                        . . . . . . . . . . . . . . . . . . ..........
                                                                              ........
                                   " .. .. .. .. .. .... . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                               .. ..




As one respondent states Faced with heavier levels of care , such as residents with
more debiltating diseases , frustrated staff take out their stress on the residents.

Respondents believe staff training deficiencies include a lack of sufficient training in
1) behavioral skills to cope with or defuse confrontational situations , and 2) stress
management skills. Further , some respondents believe some staff lack empathy for
the elderly because they lack the knowledge needed to understand problems of the
elderly (e.g. , Alzheimer s disease).

Respondents cited many reasons for nursing home staff stress. Many respondents
believe stress is caused by the reported increase in nursing home admissions of
severely iI residents. This stress is related to the difficulties of caring for impaired
and dependent residents who require help in many of the activities of daily living.
According to the Senate Special Committee on Aging (figure 11), as many as 63
percent of nursing home residents suffer disorientation or memory impairment , with
47 percent suffering senilty or chronic organic brain syndrome.


            SELEOTED OHARAOTER I ST I os OF NURS I NO HOME
               RESI DENTS 85                   YEARS AND OLDER                               (1   gSS)


                Characteristic                                                                                     Percent
                                                                                                                   Affected
    Se x:
                Ma Ie                                                                                              25.
                F ema Ie                                                                                           74.

    Patient Requires Help:

             Bat hi n 9 .....................................                                                      91 .

             Dressing                                                                                              77.
              sin 9 To
                Getting  In
                               i let Room
                                     and Out of Bed ...................                                            63.
                Eat I ng                                                                                           62.

                                                                                                                   40.

    Difficulty With         Bowel and/or Bladder Control                                                           54.

    Disorientation or Memory Impairment ..................
            Senile or Chronic Organic Brain Syndrome ....                                                          62.

                                                                                                                   47.
   SOURCE:    gin g     Ame r I c a    (1 9 8 7 - 8 8 e      d I t   Ion)

             Pre par e d b y    S e n ate S p          e c I a I     C omm I t tee

             and A    dm I n 1st rat Ion 0 n            Ag I n 9




                                                     FIGURE 11

Other factors which may add to the stress encountered by nursing home staff and
residents include cultural differences between staff and residents , personal problems
of staff or residents , and abusive or bellgerent residents.
Most respondents believe staff certifcation and traininQ will help to deter resident
abuse.

The required content , format and duration of training vary widely among States , with
most training concentrating on health and safety precautions (e. , lifting a resident
fire prevention , evacuation procedures , sanitation). Most respondents cite the value
of staff certification and training.

Of all respondent types , the nursing home industry respondents (47 percent) were
the least likely to report that training and certification would deter abuse. Reasons
cited include: 1) present training and certification have not effectively deterred
abuse; 2) training does not usually include stress management; 3) overwork resulting
from understaffng is not affected; 4) inadequate salaries for hiring qualified
personnel wiI not change; and 5) lack of professional supervsion is not corrected by
existing certification.

Administrative or manaQement factors also contribute to nursing home resident
abuse (e. Q., inadeQuate superv      staff.          turnover, low staf to
resident ratios).

Inadequate supervision of staff, low staff to resident ratios , high staff turnover, and
low wages are cited by some respondents as factors contributing to abuse of nursing
home residents. As discussed previously, nurse aides spend more time providing
residents necessary direct care than any other group of nursing home personnel.
However , this group of employees has the highest rate of turnover , averaging 75
percent annually, according to one study by Almquist and Bates (1980). Low wages
and the absence of employee benefits , recognition , and opportunities for
advancement may all contribute to job dissatisfaction and rapid turnover among
nurse aides.

Nurses experience many of the same problems confronting nurse aides. Additionally,
nurses have an increasingly important role of supervising and training
paraprofessional staff. Respondents , recognizing the nurses ' problems in meeting.
these responsibilities , say inadequate supervision of direct care staff contributes to
abuse. Although responsible for much of the training and supervision of direct care
staff, nurses often lack training to adequately perform these functions. The 1985
Invitational Conference on Issues and Strategies in Geriatric Education noted
deficiencies in nurse supervising and teaching skiIs , and indicated nurse education
programs do not routinely offer training in these areas. Compounding these
problems are the numerous responsibilties nurses have in other areas (e.
administrative paperwork).

In some homes , the ratio of nurses to nurse aides may be inadequate , just as the
ratio of nurse aides to residents may be inadequate. In order to meet State or
Federal facilty staffing requirements and to quickly fiI vacancy positions which may
result from high turnover rates , many nursing home administrators have chosen to
use temporary servces.      Some respondents believe use of such servces (nurse and
nurse aide pools) may be on the rise.    Although temporary employees can fiI critical
staff shortages , several respondents expressed concern that temporary employees may
not have been adequately screened or trained to care for nursing home residents.



                               RECOMMENDATIONS


Because this inspection indicates abuse may be a problem for nursing home
residents , we recommend the following:

          The Health Care Financing Administration (HCF A) should:

                Require , as part of its nurse aide training regulations , ongoing
                training concerning the aging process and mechanisms to cope with
                and avoid confrontational situations. Further, nursing homes should
                be required to document staff training and understanding of abuse
                and reporting responsibilities and procedures for abuse incidents.

                Require , as part of the admission requirements for a new resident
                nursing homes to inform residents about differences between living
                in a nursing home environment vs. living at home , possible problems
                they rimy encounter , and ways to deal with such problems.

                Require , as part of its conditions of participation for nursing homes
                supervsory and training staff to acquire skiIs necessary to effectively
                train and supervise paraprofessional and nonprofessional staff.

          The HCF A should further support research concerning     long term care
          policies which promote staff stabilty and provide for adequate staff- to­
          resident ratios necessary to control stress and abuse.

          The Administration on Aging (AoA) should collect and disseminate
          information about nursing home practices which avoid stress and abuse
          and promote staff stabilty and adequate supervsion.
                                  DEPARTMENTAL COMMENTS




 Comments were received from the Assistant Secretary for Planning and Evaluation
 the Office of Human Development Services , the Administration on Aging, and the
 Health Care Financing Administration. (See appendix D for the full texts.

 Assistat Sereta for Planning and Evaluation                   (ASPE)

 The ASPE agreed with the findings and recommendations of the report. More
 specifically, it " supports the OIG' s recommendations for improved training of nurses
 aides and orderlies about how to cope with stressful situations and resident behaviors
 without resorting to abuse.

 Ofce        of   Human Deelopment Services (OHDS)

 The OHDS concurred with the report.

Administrtion on Aging (AoA)


The AoA agreed with the findings and recommendations of the report.

Healt Cae Financing          Administrtion (HCFA)

While the HCF A generally agreed with the report, it did have concerns with the
primary data gathering technique utilzed , that is , an opinion survey rather than a
scientifically controlled review, which resulted in opinion data "presented as fact."
The HCF A also felt it would be advisable to include more information about the
intervews and information gathering processes used in the study.

Additinal infonnatin has been  provided in the Scope and Methodology sectin of the
report. Although evaluatin stuies do not produce absolutely certain infonnatin, they
can provide relatively objective data. As the report indicated, there was little relevant
statitical or applicable published research data concerning abuse in a nursing home.


We started with an assumptin that inividuals who routinely receive complaints of
abuse, survey for inicators of abuse, investigate abuse, or resolve abuse incidents are
knowledgeable sources.      The   survey method was designed to provide descriptive
infonnatin of extig processes using statements of opinion from a representative
populatin. Findings and recommendatins related to the survey (to identify whether
abuse was a problem,       to what extent,   etc.   ) were a result of both content and qualitative
analyses of the survey responses, available State   statistis and legilatin/regulatin, and
available research. We recognize the information provided by the respondents is
signifcant only in the way it is regarded by the researcher or the readers. There is   no
absolute interpretatin of the informatin provided.

GeneraIIy, the HCF A agreed with the recommendations of the report. The HCF A
believes their implementation of the applicable statutory requirements of the
Omnibus Reconcilation Act (OBRA) of 1989 and the Social Security Act will fulfil
the recommendations of this report. In meeting a portion of the legislative
requirements , the HCF A has revised the conditions of participation for nursing
homes (effective October 1 , 199). The HCFA believes the revised requirements will
contain many of the safeguards recommended by the OIG.

The HCF A   inicates many of the recommendations will be met by the new regulatins.
We agree that draft regulations issued thus far represent a substantial improvement over
regulatins now in effect. However, some of these regulatins are still in the public
review and comment stage and may change. Even more importantly, the regulations
defer to State law on the critical issues of complaint reportng, investigating, and follow-
up. Hence, their impact will depend greatly on how aggessively the States move on
these problems. Similarly, nursing homes wil have to comply with the State law. We
will, therefore, defer any assessment of whether our recommendations have been
implemented until the new regulatory requirements are in place and States and nursing
homes have made at least initil   efforts to   implement them.
APPENDICES

                                                           APPENDIX A



                  NATIONAL ORGANIZATION RESPONDENTS


American Association of Homes for the Aging
1129 20th Street , NW
Washington , D. C. 20036

American Association of Retired Persons - Central Office
Criminal Justice Servces
1909 K Street , NW
Washington , D. C. 20049

American Health Care Association
1201 L Street, NW
Washington , D. C. 2005

American Medical Directors Association
12100 Blue Paper Way
Columbia , Maryland 21044

National Aging Resource Center on Elder Abuse
Research and Demonstration Department
810 First Street , NE
Washington , D. C. 2002- 4205

National Association of Attorneys General
444 N. Capitol Street , Suite 403
Washington , D. C. 20001

National Association of Chiefs of Police
1100 NE   12S Street
Miami , Florida 33161

National Association of State Units on Aging
2033 K Street , NW, Suite 304
Washington , DC  200
National Citizen s Coalition for Nursing Home Reform
1424 16th Street, NW
Washington , D. C. 20036
National Sheriffs Association

1450 Duke Street
Alexandria , Virginia 22150

Police Executive Research Forum
2300 M Street , NW, Suite 910
Washington , D. C. 20037

Police Foundation
1001 22nd Street , NW Suite 200
Washington , D. C. 20037

Rehabilitation Care Consultants ,   Inc.
6401 Odara Road
Madison , Wisconsin 53719
                                                                     APPENDIX B



Tables I- VII Present Respondent Perceptions on Abuse Categories as Problems
Extent of the Problem , and Whether the Problem is Perceived as Worsening.

      Table I         Physical Abuse
      Table II
       Misuse of Restraints
      Table III
      VerballEmotional Abuse
      Table IV
       Physical Neglect
      Table V
        Medical Neglect

      Table VI
       VerballEmotional Neglect

      Table VII
      Personal Property Abuse
                                          ... ..-. -...   -..   ... ... ... -..   -......--. ........-.-.-.- -..-..-'.-                                  ...




                                                                                                                                                    TABLE I



                                                                PHYSICAL ABUSE
                                 RESPONDENT PERCEPTIONS OF SEVERITY AND TREND


                                                          SEVERITY OF THE ABUSE
                                                              FOR RESIDENTS

        100%                                                                                                                                 100%

        90%                                                                                                                                  90%      MAJOR
                                                                                                                                                     PROBLEM
        80%                                                                                                                          74%
                                                                                                                                             80%
        70%                                                                                                                                  70%
"- I­
                                                                                                                                                     MODERA TE
I- W    60%          57%                                                                                                                     60%      PROBLEM
                                      50%
        50%                                                                                                                                  50%
a: (L                                                                                                                  42%
(L W    40%                                                                 38%38%                                                           40%
                                                                                                                                                      MINOR
                       30%          33%                                                                          31%                                 PROBLEM
        30%                                                                             25%                                                  30%
                                                                                                                             22%
                                               17%
        20%
               11%
         10%                                                                                                                                          PROBLEM
                                                                                           :: 0%

                     STATE                ST A TE                              ST ATE
                COMPLAINT                 MFCU                               SURVEY AND                                                              MAJOR AND
               COORDINA TOR                                                 CERTIFICA TION                                                           MODER A TE
                                                                                                                                                     COMBINED




                                                                 ABUSE TREND:
                                                            IS IT GETTING WORSE.
                                                           BETTER OR STAYING THE
                                                            SAME FOR RESIDENTS

        100%                                                                                                                                 100%
                                                                                                                                             90%
                                                                                                                                             80%
                                                                                                                                                      WORSENING
                                                                                                                                             70%
"-I­                                                                                          60%
                                                     59%                                                                                     60%
I- W                                                                                                                                                   I::::::::j
                 49%                                                                                                           48%           50%      IMPROVING
a: CL                                                                                                                                  43%
                           40%                                                                                       39%
CLW                                                                                                                                          40%
                                                                                  27%                                                        30%
                                      26%
                                                                                                                                                      STAYING
         20%                                                                                                                                 20%      THE SAME

         10%                                                                                                                                 10%
                                                                  -_....         _._ ----




                                                                                                                                         TABLE "


                                                MISUSE OF RESTRAINTS
                                RESPONDENT PERCEPTIONS OF SEVERITY AND TREND


                                                      SEVERITY OF THE ABUSE
                                                          FOR RESIDENTS
          100%
                                                                                                                                  100%
          90%                                                                                                                     90%      MAJOR
                                                                                                                                          PROBLEM
          80%                                                                                                                     80%
  LL (J   70%                                                                                                                     70%
  I-      60%       57%                                                                                                                   MODERA TE
                                                                                        56%                                       60%     PROBLEM
          50%                             46%                                                                                     50%
                                                            44%                                                        44%
 ff(J
          40%                                   36%               38%
                                                                                                                                  40%
                                                                                              32%                                          MINOR
          30%            27%
                                                                                                                 26% ::           30%     PROBLEM

          20%                       18%                                 19%                                               : 19%
                                                                                                                                  20%
          10%                                                                                                                     10%
                                                                                                                                          PROBLEM



                                                                                                                                         MAJOR AND
                                                                                                                                         MODER A TE
                                                                                                                                          COMBINED




                                                             ABUSE TREND:
                                                        IS IT GETTING WORSE.
                                                       BETTER OR STAYING THE
                                                        SAME FOR RESIDENTS
          100%                                                                                                                    00%
          90%                                                                                                                     90%
          80%                                                                                                                     80%
                                                                                                                                         WORSENING
LL I­
          70%                                                                                                                     70%
I- W      60%                                                                                                                     60%
                   54%
                                                 48%
                                                                           53%
                                                                                                        47%           48%
                                                                                                                                          I::::q
          50%                                                                                                                     50%     IMPROVING
a: 0­
w(/                                                                                         39%
O-W       40%                                                                                                                     40%
                          34%
                                                                                                                30%
          30%                        26%26%                         27%                                                           30%
                                                             20%                                                          22%             STAYING
          20%                                                                                                                     20%     THE SAME
                                                                                                  14%
          10%


                    ST ATE                ST A TE                 STATE                       STATE              STATE
                  COMPLAINT               MFCU              SURVEY AND                  OMBUDSMAN             NURSING HaM
                 COORDINA TOR                              CERTIFICA TION                                       INDUSTRY
                                            ----..-..-..----.--.                                       ...                               ...




                                                                                                                                                            T ABLE III



                                                                    VERBAL/EMOTIONAL ABUSE
                                      RESPONDENT PERCEPTIONS OF SEVERITY AND TREND


                                                                             SEVERITY OF THE ABUSE
                                                                                 FOR RESIDENTS

         100%	                                                                                                                                       100%

         90%                                                                                                                                         90%       MAJOR
                                                                                                                                                              PROBLEM
         80%                                                                                                                                         80%
         70%	                                                                                                                                        70%
LL I-                  54 % -..-..-..-.-.
                                                                                                                                                             MODER A TE
I- W     60%	                                                                                                      56%                               60%      PROBLEM

                                                                                                                                                     50%
a:Q	 50%                                                      45%                  43%                                               43%
                                                                                                                                                               1.../
                                                                                                                                        39%
     40%                                                                                 36%                                                         40%
                            32%                                                                              33%                                               MINOR
                                                                     31%
                                                                                                                                                              PROBLEM
         30%                                                                                                                                         30%
                                                        21%                                 21%	
                                                                                                                               18%
         20%                                                                                                                                         20%
                 14%

          10%	                                                                                                                                       10%
                                                                                                                                                              PROBLEM
                                                                                               . 0%



                                                               ST A TE                   ST A TE
                                                                   MFCU             SURVEY AND                                                               MAJOR AND
                                                                                   CERTIFICA TION                                                             MODER A TE
                                                                                                                                                              COMBINED




                                                                                   ABUSE TREND:

                                                                              IS IT GETTING WORSE.
                                                                             BETTER OR STAYING THE

                                                                              SAME FOR RESIDENTS


         100%	                                                                                                                                        00%
          90%	                                                                                                                                       90%

          80%                                                                                                                                        80%
                                                                           71%                                                                                WORSENING
          70%                                                                                                                                        70%
LL I-	                                                                                                                                         62%
                                                                                                                                                     60%
I- W	     60%      54%
                                                                                               50%
                                                                                                                         53%                                    I/)(j
                                                                                                               47%                                   50%       IMPROVING
          50%                                                                        44%

a:Q
w(f                                                                                                                                                  40%

          40%                    37%

          30%	                                                                                                                                       30%
                                                             24%                                                                                               ST A YING
          20%                                                                                                                        19% 19%         20%       THE SAME

          10%	                                                                                                                                       10%


                        5T A TE                                    ST A TE                STATE                     STATE             STATE
                  COMPLAINT                                        MFCU             SURVEY AND                OMBUDSMAN        NURSING HOME
                 COORDINA TOR                                                      CERTIFICA TION                                INDUSTRY
                              ,,-                       '_' -,'   -"-"     _'_"      --"               .-.-              \... :::




                                                                                                                                            TABLE IV


                                                                  PHYSICAL NEGLECT
                                RESPONDENT PERCEPTIONS OF SEVERITY AND TREND



                                                            SEVERITY OF THE ABUSE
                                                                FOR RESIDENTS
         100%                                                                                                                        100%
         90%                                                                                                                         90%      MAJOR
                                                                                                                                             PROBLEM
         80%                                                                                                                         80%
 u. f­   70%                                                                                                                         70%
                                                                                                                          65%
         60%     57%                                                                                                                         MODERA TE
                                                                               53%                                                   60%     PROBLEM
         50%                              47%                                                    46%
 a: CL                                                                                                                               50%
 CL W    40%                        37%
                                                                                                       40%
                                                                                                                                     40%
                                                                                                                                              1(,.,)'
                                                                                                                                              MINOR
         30%                                                             27%                                                         30%     PROBLEM
                       19%                      13%
         20%                                                                                                                 , 15%   20%
         10%                                                                                                                         10%
                                                                                                                                             PROBLEM

                                          STATE                                STATE                   STATE           ST A TE
                                          MFCU                            SURVEY AND             OMBUDSMAN          NURSING HOME            MAJOR AND
                                                                         CERTIFICA TION                               INDUSTRY               MODER A TE
                                                                                                                                             COMBINED




                                                                  ABUSE TREND:
                                                             IS IT GETTING WORSE.
                                                            BETTER OR STAYING THE
                                                             SAME FOR RESIDENTS
         100%                                                                                                                        100%
         90%                                                                                                                         90%
                                                                                                                                     80%
                                                                                                                                             WORSENING
LL f­                                                                                                                                70%
                                                  61%
                54%                                                                               56%                                60%
                                                                                                                                              1.())1
                                                                                           47%                                       50%     IMPROVING
a: CL                                                                                                                   43%43%
w(j
CLW
                                                                           40%
                        34%          32%                                                                      33%
                                                                                                                                     40%
                                                                                                                                     30%
                                                                                                                                             STAYING
         20%                                                                                                                         20%     THE SAME

         10%                                                                                                                         10%
                               -.---.   _.._....-- -..--   ... --- .-- ... .---..- ...                                                                         ...




                                                                                                                                                          T ABLE V



                                                                              MEDICAL NEGLECT
                                 RESPONDENT PERCEPTIONS OF SEVERITY AND TREND


                                                                         SEVERITY OF THE ABUSE
                                                                             FOR RESIDENTS

        100%                                                                                                                                       100%

        90%                                                                                                                                        90%      MAJOR
                                                                                                                                                           PROBLEM
        80%                                                                                                                                        80%
     e/ 70%                                                                                                                                        70%
                                                                                                                                                           MODERA TE
f-      60%       57%                                                                          56%                                     54%         60%      PROBLEM
t;z                                                                                                                                                50%
        50%                                                                                                    44%
wCf                                                 41%                                                                                                     I?:o\o:/:I
CL      40%                                                                                                                                        40%      MINOR
                                                                                                             32%
                                                           30%                                                                                             PROBLEM
        30%            27%                  26%                                                      25%                           27% .           30%
                                                                                                                     21%
                                                                                         13%
        20%                                                                                                                                        20%

        10%                                                                                           . 6%                                         10%
                                                                                                                                                           PROBLEM


                  ST A TE                           ST A TE                                                        STATE             ST ATE
                COMPLAINT                            MFCU                                                    OMBUDSMAN           NURSING HOME              MAJOR AND
               COORDINA TOR                                                                                                        INDUSTRY                MODERA TE
                                                                                                                                                           COMBINED




                                                                                    ABUSE TREND:
                                                                               IS IT GETTING WORSE.
                                                                              BETTER OR STAYING THE
                                                                               SAME FOR RESIDENTS

        100%                                                                                                                                       100%

        90%                                                                                                                                        90%
        80%                                                                                                                                        80%
                                                                                                                                                           WORSENING
                                                                                                                                                   70%
u. f­
                 61%
f- W                                                             54%
                                                                                                                           56%                     60%
                                                                                                       53%
        50%                                                                                                                                        50%      IMPROVING
a: CL                                                                                                                                        44%
we/
CL W                                              35%
                                                                                                                                       33%
                                                                                                                                                   40%
                                                                                                               32%
        30%              28%                                                                     27%                                               30%
                                                                                                                                   22% :.
                                                                                           20% O                                                            STAYING
        20%                                                                                                                                        20%      THE SAME
                                                           12%                                                       12%

         10%                                                                                                                                       10%


                  STATE                              STATE                                      ST A TE            STATE             STATE
                COMPLAINT                             MFCU                                SURVEY AND          OMBUDSMAN          NURSING HOME
               COORDINA TOR                                                              CERTIFICA TION                            INDUSTRY
                         .,,.                         / "
      ''''     _''_''-''   --'                                                   ' ,,,,,,,
                                                                                                                                              - :-'




                                                                                                                                     T ABLE VI


                                                VERBAL/EMOTIONAL NEGLECT
                                  RESPONDENT PERCEPTIONS OF SEVERITY AND TREND


                                                     SEVERITY OF THE ABUSE
                                                         FOR RESIDENTS

          100%
                                                                                                                              100%
          90%                                                                                                                 90%      MAJOR
                                                                                                                                      PROBLEM
                                                                                                                              80%


  f-
  t5z
  UJ (/
 Q.
          70%
          60%
          50%
          40%
                    44% "   c.     23%
                                         38%

                                           27%
                                                        44%44%

                                                                                           42%
                                                                                                 39%

                                                                                                       19%
                                                                                                                  38% 38%
                                                                                                                              70%
                                                                                                                              60%
                                                                                                                              50%
                                                                                                                              40%
                                                                                                                              30%
                                                                                                                                      MaDERA TE
                                                                                                                                      PROBLEM


                                                                                                                                       I,,,,,,,,

                                                                                                                                        MINOR
                                                                                                                                      PROBLEM

                                                                                                                              20%
          10%                                                                                                                 10%
                                                                                                                                      PROBLEM



                                                                                                                                     MAJOR AND
                                                                                                                                      MaDERA TE
                                                                                                                                      COMBINED




                                                           ABUSE TREND:
                                                      IS IT GETTING WORSE.
                                                     BETTER OR STAYING THE
                                                      SAME FOR RESIDENTS

          100%                                                                                                                100%
          90%                                                                                                                 90%
          80%                                                                                                                 80%
                                                                                                                                      WORSENING
L1 f­
          70%                                                                                                                 70%
                                               64%                     63%                                             62%
f- UJ     60%                                                                                                                 60%
                            50%                                                              50%
          50%      44%                                                                                                        50%     IMPROVING
a: Q.
UJ (/                                                                                                    41%
Q. UJ                                                     38%
                                                                                                                              40%
                                     32%
                                                                                                                              30%
                                                                                                                                      STAYING
          20%                                                                                                                 20%     THE SAME
          10%                                                                                                                 10%


                    ST A TE          ST A TE               STATE                             ST ATE               STATE
                  COMPLAINT              MFCU            SURVEY AND                        OMBUDSMAN           NURSING HOME
                 COORDINA TOR                           CERTIFICA TION                                           INDUSTRY
                                                                 _. - --". - ".' '




                                                                                                                                                   TABLE VII


                                           PERSONAL PROPERTY ABUSE
                                  RESPONDENT PERCEPTIONS OF SEVERITY AND TREND


                                                   SEVERITY OF THE ABUSE
                                                       FOR RESIDENTS

        100%                                                                                                                                100%

        90%                                                                                                                                 90%      MAJOR
                                                                                                                                                    PROBLEM
                                                                                     - -.- h-n_n_..-u,,-.. - n_
        80%                                                                                                                                 80%

LL if   70%                                  56%                                                                                            70%
o!z                                                                                                                                                 MODERA TE
f-      60%                                                                                         53%
                                                                                                                                            60%      PROBLEM
ijz     50%                                                                                                                                 50%
                                                               44%
ffif                   39%                               38%
                                                                                                                                41%                  L'o;:):,J
        40%                                                                                                                 34% "~c
                                                                                                                                            40%      MINOR
                 33% ,:,'            32%
                                                                                                                                                    PROBLEM
        30%                                                                                                26%                              30%
                                                                                                                  21%
        20%                                                                                                                                 20%

         10%                                                                                                                                10%
                                                                                                                                                    PROBLEM


                                                                                                            ST A TE          ST A TE
                                                                                                      OMBUDSMAN           NURSING HOME              MAJOR AND
                                                                                                                            INDUSTRY                MODER A TE
                                                                                                                                                    COMBINED




                                                           ABUSE TREND:
                                                      IS IT GETTING WORSE.
                                                     BETTER OR STAYING THE
                                                      SAME FOR RESIDENTS

        100%                                                                                                                                00%
        90%                                                                                                                                 90%
                                               79%
        80%                                                                                                                                 80%
                                                                                                                                                    WORSENING
                            68%                                                                                     69%
        70%                                                                                                                                 70%
LL f-

f- W    60%                                                               57%                                                         56%   60%
                                                                                                                                                     I"""",:"""",

        50%                                                                                                                                 50%      IMPROVING
a: (L
(LW     40%                                                                                                                                 40%
        30%      29%                                                                                                                        30%
                                                                                                         25%
                                       21%                 21% 21%                                                          22%22%                   ST A YING
        20%                                                                                                                                 20%      THE SAME

         10%                                                                                                                                10%


                  ST A TE                  STATE                STATE                                        STATE           STATE
                COMPLAINT                  MFCU           SURVEY AND                                   OMBUDSMAN          NURSING HOME
               COORDINA TOR                              CERTIFICA TlON                                                     INDUSTRY
                                                                       APPENDIX C


                         DEPARTMENTAL COMMENTS


Comments on the draft reports were received from four Department of Health and
Human Servces entities - the Assistant Secretary for Planning and Evaluation , the
Health Care Financing Administration , the Office of Human Development Servces
and the Administration on Aging. The full texts of their comments are attached.
                  DEPARTMENT OF HEALTH &. HUMAN SERVICES	          OHice of the Secretary


""'''h1	                                                           Washington , D, C,   20




           MEMORADUM              DEC 2 9 1989

           TO:	         Richard Kusserow
                        Inspector General

           FROM:	       Arnold R.  Tompkins
                         Acting Ass 9tant Secretacy for Planning and Evaluation
           SUBJECT:	     OIG Draft Reports:  (1) " Resident Abuse in Nursing
                         Homes: Respondent Perceptions of Issues" and (2)
                         "Resident Abuse in Nursing Homes: Resolving Physical
                         Abuse Complaints

           I commend the OIG staff for producing two excellent reports
           recommending strategies for dealing with         it.
           documenting the problem of resident abuse in nursing homes and
                                                           OASPE supports the
           OIG I S recommendations for improved training of nurses aides and
           orderlies about how to cope with stressful situations and
           resident b haviors without' resorting to abuse , improved abuse
           complaint investigation and resolution as part of state
           enforcement of Federal nursing home regulations , and improved
           systems for abuse reporting.

           In my view , these two reports merit the widest possible

           dissemination among Federal and state agencies concerned with

           nursing home regulation as well as among the nursing home

           industry ' and consumer groups.
           ----           --' - -   _.'- ---                            -_.           -=--

                                                                                             Health Care
                                                                                             Financing Administration
          DEPARTME T OF HEALTH So HUMAN SERVICES
                                                                              -r--­
                                                                                             Memorandum
Date

From
            Los
            Acir
                           B, Hays
                                          jJ.
                                                   44­
            OIG DrftRert:   Reident Ab in Nuir Han:
Subject      (1) Rerrt   Peion    of Iss---06-88-00360,
             (2) Relvir Ibysica Ab C:lai---06-88-000361
             'le
             Office of the
                          Inr
             rert.        We ar                   for
                                                 digr to ya          re stca
                                                             on th tw sujec

                re     Fir,  we         with you      methodolog, paicuarly
                         to the Rerrt Peion of Iss st. Hcer,
             with
             genly agr with th
             cu
             to a

             Oc
                      lis the
                     cation            maes.   re    am:r  retions,
                                                           ha   aldy be done
                                                                 'l
                                                      stes we don uner the
                               of paicipation, whdl will be in effec tmtil
                     1, 1990. On tht date,                                re,re
                                                                     reis th
                                                               whch cotain may
             of               re ..,.                          wil go
             effec. We do DX beieve it wcd be aprqriate to ma aationa
                      th safeg           by OIG in

                  es at th t..


                                               wcd be adisle to inlud nore ino:rtion abt
                                                    pro pro
                                                          us in th             st.
                          We beieve it
             the iniew ar                                                       th
              app                          wa an opinon suey, rather
                                                inonntion gatherir

                    the data gatherir

                       to proce th rets fou; i.
                                          inesigate ab th
                                                              am .CIof th f
                                                                   as fact.
             scientificaly cotrlled reieW. Yet the data we preteoter
             'I te                                               prclem, whe thos
                                                                                      e.




                                                    quion th. seioo
                                                                        it is a
              reretir nuiI ha
              officials




                  QJ
              advis us whth you
                                     ca
                            on th spific
                                                      ag
                                    with ou poition at yc ealies
                                                                      retions
                                                        ar attched. Plea
              coenen.

              Attclt

Page 2


HCA        O:ts
           ths reccllllendation an have be aci vel y p.rsing ths
We agree with
              th nue aide traing an
regation rrtianed in 1a, th Seretary iscctecy
end. As part of                                     evaluation program
                                          reqired to establish
regation for th qualification of intructrs               of nuse   aide traing
and cctency evaluation progcr. Whe we caot predict th preise
content of th fin rues, thre wil be
intructors. Alo ,
                                                 mi
                                        qualification for
                                                 tht     rrt    the
                                                             have
sufficient nursing stf to provide nursing an relate service to attain
                       42 er 483. 30 inicates           facilities "

or maintain th high practicale physical, rrtal, an pschocial
well- being of each resident as determed by resident assessrt plan an
individual care plan. This wwd include th survisory Inrsing staff
having th necsar skils to supervise direc care             a maer
                                   llluding th
                                                            staf   in
consistent with resident rights,                       right to be free fran
ab.e .
Recation No.

H:A shod conduct       fur research cocerng            long term care P=licies
which prcrte stff stility an provide for adeqate stf-patient
ratios necsary to cotrol stress an ate.
H:AO:ts
We beieve tht we
enring tht
metioned     in
                      hae alreay develop . an appropriate
                  facilities have adeqate an appropriate staff.
                  wrrese    to Recation 1c, H:A wil reqre tht
                                                                   rr      for

facilities have    suficient staff to
                                 provide for th nees of
residents, hCer,   it is clea tht increing stf-resident ratios
alone wil not cotrol ate. Th wtcoriente reremt gives
facilities main flexibility in determg th ways th wil proide

additional        fuing.
for staff staility an ene tht th nees an rights of reidents are
met. We alo note tht any furtr               ths area wod reqire
                                      research    in
OIG        recs            ha, shcud:
                   tht lCA, as part of its
hospi tals and nursing
                                             coition of participation for
Reccration No.

Reqire al nursing ba staff an hospita          rrical personel to          report
al suEr
loc
                        abe to th nursing ba
                  incidents of
      law enorcat an to th cetral
                                                          adrator
                                                                   resibility
                                             agency assignEr
for resolution of ahe calaits.


lOA        O:ts

                            ths recation. we wil rere,

We do not agree entirely with
effecive CXober 1, 1990, at 42 er 483. 13(for mrsing ha), tht al
aleged ahe be report to th mrsing     ba   adtrator or othr
            accrdan with state law.  lDA  hospita  coition
participation an th Joint Casion                    of Hethre
official     in

                                    on Acreditation
Organzation   staars  do not reqire reprting  .of ahe.  Hcer, th
hospital coition of participation do rere tht hoita follCM
state law. we ar not aware of a signficat abe              hoitals
an do not l:ieve we ne to revise cur coition of paicipation.
                                                        problan       in




re
do not l:ieve tht
            to hoita.
Recation No.

                          th OIG ha    dartrate   a signficat
                                                       problan with



Reqire mrsingha to reprt al abe inidents totyloc
 enorcat, th cetral agcy assigner resibili
                                                       law


 ahe calaints an to th state SUrvey an Certification Ag.
                                                  for resolution of


H:A        Ccts
                     fuy with ths t ecmenatian. Agai, effecive
                        wil reqire tht al aleger ince of ahe
We do not agree
 O:ber   1, 1990, we
 reprt   to th m.sing ba adrator               or cutside official in
 accrdance with state law. we beieve ths is suficient an tht mior
 ahe incidents ca be effecively haer by th aCstrator tht                   wi
 th nee           vart
              for invol        enorcat
                              of law              personel.
 Recdation No.

 Reqire nursing      ha to matain report of
  an the action taen by th nursing ba.
                                                   su             incidents of   abe
 H:A       Cats
                                 th new regation, which reqire tht nuing
 ba
 We agree and l:ieve tht
      condct investigation of aleger
 investigations, an
                                            are, matain evidence of
                                 action whe ahe is verifier, wil
  satisfy ths     reation.tae correcive
Page 2


Recation No.
   ire adstrators to coct anysis of al incident reprt
determe imlication and appropriate acion.
H:A   O:ts

We agree an beieve tht th new       regation cover ths issue.

Recardation No.


    ire nursing   ha to spify, as pa of th nursing haeithr
plan of care, . a plan to prevent abe of a reident
                                                        residents
                                                            metaly
                                                       who is
or physicay unle to prote hiherself.
HCA   O:ts
       an believe tht th new regation cor ths issue. The
We agree
regation at 42 CE 483. 20 provide for a c:rehive assessrt an
developrt of a plan of care for every resident. The plan assessrt an
plan of care shwd include any spial resident nees, inuding spific
steps for prevention of   ahe, if nesar.
Recdation No.


           su.haof abing
   ire nusing
emloyee
                       to proide oogoin rrtoring an caeling
                               residents.
IUA   O:ts
We disagree with

cotine
                  th   eculIend
we do not l:ieve tht person
         to work with residents
Itt be appropriate or     th nu be
                                  suraed
                                  aticn. Coeling o:d be ineqate,
                                          of abe shadbe
                                   whe being c:eled. Their bevior
                                             fran th    job if   extion
                                                                             an


are not net.
oter Recations
HCA agree with    th recation for state an loc resibilities,
resolution an follCMp tht reires
data for IDA.
                                       each state to   natain retrievable
In addition, lCA also     agr with thccn
th Adstration on Aging develop
                                       joint recation tht lCA and
                                           defintion an categories of
abe for al state an Feeral reprting p.rpes.            We   wil work toard
ths end.
:::
                                                              Office of
         DEPARTMENT OF HEALTH &. HUMAN SERVICES	              Human Development     ervices


                                                              Assistant Secretary
                                                              Washington DC 20201


                  DEC 22 1989



      TO:	        Richard P. Kusserow
                  Inspector General

      FROM:       Assistant Secretary
                    for Human Development Services
      SUBJECT:	   Draft Reports on (1) "Resident Abuse in Nursing Homes:
                  Respondent Perceptions of Issues, " OAI-06-88-00360 and
                  (2) "Resident Abuse in Nursing Homes: Resolving

                  Physical Abuse Complaints, " OAI-06-88-00361




      Thank you for the opportunity to review the draft reports on
      Resident Abuse in Nursing Homes. We ,concur with the draft
      reports.
      If you have any questions, please contact Deborah Bass at

      245-3176.


                                             /kL
                                            Mary Sheila Ga

 DEPARTMENT OF HEALTH &. HUMAN SERVICES	           Off   of the Secretary



Administration on Aging	                           Washington ,   D, C.   20201




                                   JAN - 9 1990


TO:	        Richard P. Kusserow
            Inspector General


FRO	        Acting Commissioner on Aging

SUBJECT:	   Comments on the OIG Draft Reports on Resident
            Abuse in Nursing Homes

The Administration on Aging (AOA) appreciates the
opportuni ty to comment on the OIG draft reports w Resident
Abuse in Nursing Homes: Respondent Perceptions of Issues 

and w Resident Abuse in Nursing Homes: Resolving physical
Abuse Complaints.    We are pleased that the current draft
reports incorporate changes which respond to most of the
concerns that AoA expressed about the earlier draft

materials. We want to thank George Grob for his time and

diligence in making the necessary changes.

While most of our comments have been addressed, we continue
to have serious concerns about one major item in the report
on Resolving Physical Abuse Complaints. The Executive
Summary (p. iii) under Recommendations relating to Federal
Responsibi ities proposes, among other things, that the
Administra tion on Aging should expand and strengthen its
efforts to issue periodic public reports concerning abuse
trends.   This topic. is discussed further on page 17 of the
report which notes that, while the AoA Ombudsman Report is a
major indicator of nursing home abuse, it cannot be used to
obtain reliable national counts of abuse (particularly for
specific problem areas.     The report goes on to state that,
for several reasons which are cited (p. 18), there are no
adequate national nursing home abuse statistics to provide
an incidence rate or trend for nursing home abuse.

We concur with the observation that there are no data which

can be used to provide an incidence rate or trend regarding

nursing home abuse. The impediments to the collection of

such data which the report cites are beyond the capaci ty of

AoA to overcome. Ther fore, it is not possible for AoA to
respond to the report' s recommendation to expand and

strengthen its efforts to issue periodic public reports

concerning abuse trends. In light of the report' s own

conclusions regarding the significant nature of impediments

to the collection of tren data, we once again request that

                                          !"p



                            - 2­

the recommendation concerning AoA which appears on p. iii

the Executi ve Summary delete any reference to issuance of

reports on abuse trends and be revised to read:


    The Administration on Aging (AOA) should expand and

    strengthen its efforts to 1) issue best practices for

    preventing and dealing wi th resident abuse, 2) promote

    public awareness and education concerning abuse occuring

    in nursing homes and 3) promote use of volunteer

    Ombudsman in nur sing homes.


Again, we appreciate the opportuni ty to review and comment
on the draft reports prepared by OIG.
                                                                                         APPENDIX D

                                      PUBLIC COMMENTS


Comments were received from several organizations with interests pertaining to the
elderly, nursing homes , or law enforcement:

               American Association of Homes for the Aging
               American Health Care Association
               National Aging Resource Center on Elder Abuse
               National Association of Chiefs of Police
               National Association of Medicaid Fraud Control Units
               National Citizen s Coalition for Nursing Home Reform
               Police Executive Research Forum

Additional comments were received from a select representation of State and local
entities involved directly or indirectly with issues relating to the elderly, nursing
homes , or law enforcement. AIl comments were reviewed and analyzed. Findings
and recommendations in both final reports reflect many of the pertinent concerns
and issues raised by the commentors on the draft reports.

The following are short excerpts expressing concerns and observations of report
reviewers:

     I am disturbed by the absence of national and state statistics in (the) two- part report
    and (the) reliance on the impressions of a small sample of individuals with a skewed view
    of the issue. 1   am further disturbed by your failure to adequately define   the term,

    abuse " which has resulted in confused and unreliable    findings. " (Nursing   Home

    Advocate)


     We must assist familes who have loved ones in a facilty to becme more aware of the
    aging procs and the circumstance surrounding the institution living. Consideration
    should also be given whereby training modules are made available to and participation in
    them encouraged for relatives and friends of the institutionalized aged and infirm.
    (State Complaint Cordinator)

    We feel strongly that your report should acknowledge the costs to the Medicaid and
    Medicare programs of such (supervisory training for direct care supervsors) training, as
    well as the time diverted from patient care activities to fulfll such requirements -­
    particularly at a time when there is a national shortge of    skiled nursing personnel."
    (Nursing Home Advocte)

      feels strongly, and the final report of the National Commission on Nursing recgnize,
    that the Medicaid program -- through inadequate reimbursment -- actually limits
    nursing home providers ' abilty to recuit and retain adequate members of highly skilled
    nursing staff. We believe that HCFA, in approving State Medicaid reimbursement plans,
    must ensure that reimbursement rates allow nursing homes to compete with hospitals
    and other health care providers for scarce nursing staff. " (Nursing Home Advocte)
  I would like to see a study on the emotional makeup of the abusing aides to include
mental health exams and espeially depression scales since
                                                            peple with mild mental
ilnesses get much worse under stress and may be impulsive or neglectful.
                                                                             To prevent
medical neglect I would like to see physician training in geriatrics and medical
directorship be much more widely required , and a strong medical director
                                                                            system in
nursing homes...   (Physician)

 The resistance to recmmendations of this nature (involving attitudes and understanding
behaviors) revolve around funding. At the risk of oversimplification , some of the
problems might better be addressed and resolved if there were not the present and near
impossible crazy quilt of 50 different State reimbursements for Medicaid. And there
might be far less medical neglect if Medicare did not discriminate against payments for
physician visits for patients in nursing homes. " (Nursing Home Administrator)

 Require Medical Schools to offer courses in geriatrics , and require rotation of interns in .
nursing homes; move toward nationalization of Medicaid payments. " (Nursing
                                                                                 Home
Administrator)
                                                                         APPENDIX E



                                          BIBLIOGRAPHY


A Consumer Prospective on Quality Care: The Residents ' Point of View National
Citizens ' Coalition for Nursing Home Reform.

Chance , Paul Attacking Elderly Abuse Psychology Today. September ,     1987.



Committee on Nursing Home Regulation , Institute of Medicine Improving the Quality
of Care in Nursing Homes National Academy Press: Washington , D. , 1986.


Congress of the United States , Congressional Board of the 100th Congress Losing A
Milion Minds Office of Technology Assessment , Washington , DC: Government
Printing Office , April , 1987.

Dalton , Rex State Effort to Close Hospital Points Up Industr   Problems The San
Diego Union , October 4 , 1987.

Dolon  , Ronald and James E. Hendricks, An Exploratory Stuy Comparing Atttues
and Practies of Police Offcers and Social Service Providers in Elder Abuse and
Neglect Cases Journal of Elder Abuse and Neglect , Volume 1 o. 1 , 1989.


Doty, Pamel and Ellen Wahl Sullvan Community Involvement in Combating Abuse
Neglect, and Mistreatment in Nursing Homes MiIbank Memorial Fund
Ouarterly/Health and Society, Vol. 61, No. , 1983.



 Douglass               Domestic Mistreatment of the Elderly - Towards Prevention
             , Richard L.,


 Prepared for the American Association of Retired Persons , Criminal Justice
 Servces , Washington , DC: 1987.

Elder Abuse and Neglect: Recommendatins from the Research Conference       on Elder

Abuse and Neglect University of New Hampshire , June , 1986.


 Fiegner , Janice J. , Mark Fiegner, and Jack Meszaros Policy Implicatins of a
 Statewide Survey on Elder Abuse Journal of Elder Abuse and Neglect , Vol. 1 , No.
 2, 1989.



 Filnson , Rachel and Stanley R. Ingman Elder Abuse Practice and Policy, Human
 Sciences Press , Inc. ,          1989.
Fleishman , Rachel and Revital Ronen Quality of Care and Maltreatment in the
                         International Workshop on Stress , Conflct and Abuse in
Institutins of the Elderly, 


the Aging Family, Jerusalem , August 25- , 1986.

Floyd , Jeanne Collecting Data on Abuse of the Elderly,
                                        Journal of Gerontological
Nursing , Vol. 10, No. 12.

Fredriksen , Karen I. Adult Protective Services: Changes with the Introduction
Mandatory Reporting, 
Journal of Elder Abuse and Neglect , Vol. 1 , No. , 1989.

Gaynes           State Legilatin
             , Mindy,                                    Relating To Abuse And Neglect Of The Elderly,

Informational Servce of the National Conference of State Legislatures , Denver
Colorado , Vol. 6 , No. , December , 1981.

Generations Ouarterly Journal of the Western Gerontological                                                Society ,    Vol. VIII
No. , Spring, 1984.

Health Care Financing Administration Health Care Financing Review , Volume 7
Number 3 , Spring, 1986.

Health Care Financing Administration Program Statistics , Medicare and Medicaid
Data Book , 1988.

Hudson , Margaret F. Analyses of the Concepts of Elder Mistreatment: Abuse and
Neglect Journal of Elder Abuse and Neglect, Volume 1 , No. , 1989.

Lefley, Harriet P. Aging Parents as Caregivers of Mentally fll Adult Children: An
Emergng Social Problem Hospital and Community Psychiatry, Vol. 38, No. 10
October, 1987.

Lubahn           Family Abuse of the Elderly: Theoris on the Absence of Federal
            , Kathry,

Response: The Kingdon Model April 24, 1986.

Medicare and Medicaid Patient and Program Protection Act of           1444), One                         1987   (H.R.

Hundredth Congress of the United States of America At the First Session, January
 , 1987.


Moroney, Helen                  Abuse of the Elderly,
            The Daily Texan November 26,                           1985.


Morrison, Malcolm H. The Aging of the U.S. Population: Human Resource
Implicatins Monthly Labor Review, May, 1983.
National Council on the Aging, Inc. Community Care Quarterly , Fourth Quarter
1987 , Vol. II , No.

National Council of Senior Citizens , Legal Research and Servces for the Elderly,
Elder Abuse and Neglect Reportng and Handling Legilatin Washington
       , December 5 ,   1979.


Nauman, Kate Elder Abuse Laws: Problems of Comparions Between States Field
Seminar (SW687A), Spring, 1986.

  Malley, Terrence A. , Everitt , Daniel E. , O' Malley, Helen C. and Campion , Edward
   Identifing and Preventing Family-Mediated Abuse and Neglect of Elderly Persons
Annals of Internal Medicine (1983. 007- 000 American College of Physicians).

Part I: Elder Abuse and Family violence in the Home: A Review of the Research
(Excerpt), Elder Abuse and Neglect: A Guide for Practitioners and Policy Makers San
Francisco, CA. , The National Paralegal Institute , February 1981.

Pedrick- Cornell , Claire and Richard J. Gelles Elder Abuse: The Status of Current
Knowledge Family Relations , July, 1982.

PiIemer , Karl and David Finkelhor The Prevalence of Elder Abuse: A Random
Sample Survey 
  The Gerontological Society of America, Volume 28, No. , 1988.


PiIemer , Karl and David W. Moore Abuse of Patints in Nursing Homes: Findings
From a Random Sample                University of New Hampshire , 1988.
                                Survey of Staff,




PiIemer , Karl and Denise Prescott Psychological Effects of Elder Abuse: A Research
Note Journal of Elder Abuse and Neglect, Volume 1, No. , 1989.


 PiIemer , Karl A. and Rosalie S.             Wolf,   Elder Abuse: Conflct in the Family. Auburn
 House Publishing Company, 1986.

 Plotkin , Martha R. A Time for Dignity, Police Executive Research Forum ,               1988.



 Quinn , Mary Joy and Susan K. Tomita Elder Abuse and Neglect Causes. Diagnosis.
 and Intervention Strategies , Springer Publishing Company, Inc. , 1986.

 Sabatino , Charles P. CLE: Home Care Quality: Explorig the Unknown Part I
 Bifocal , Vol. 7 , No. 3, Fall 1986.
 Sabatino , Charles P. CLE: Home Care Quality: Exploring the Unknown Part II
 Bifocal , Vol. 7 , No. , Winter 1986.

 Salend , Elyse , Rosalie A. Kane , Maureen Satz, and Jon Pyoos Elder Abuse
 Reporting: Limitatins of Statutes    The Gerontologist Vol. 24 , No. , 1984.

 Select Committee on Aging, House of Representatives, Ninety- Seventh Congress
Physical and Financial Abuse of the Elderly,
                                              San Francisco , Calif: U. S. Government
 Printing Office Washington , April 3 , 1981.

Skolnick , Barbara and Pamela Warrick The Right Place at The Right Time: A

                                                       , 1985.
Guide to Long-term Care Choices American Association of Retired Persons , Health
Advocacy Servces Program Department

Special Committee on Aging, United States Senate Aging America ,                  1987- 1988   Ed.
Special Committee on Aging, United States Senate Information Requirements for
Evaluating the Impacts of Medicare Prospective Payment on Post-Hospital Long

                                                           , 1985.
Term- Care Services: Preliminary Report , (GAOIPEMD- 85- 8), Washington , D. C.:
  S. General Accounting Office , February 21

Special Committee on Aging, United States Senate Nursing Home Care: The
Unfinished Agenda May 21 ,                     1986.


Subcommittee on Health and Long-Term                    Care of the Select Committee on Aging,
House of Representatives , Ninety- Ninth         Elder Abuse: A National Disgrace
                                                       Congress
Washington , D. , U. S. Government Printing Office , 1985.

Surgeon General's Workshop on Violence and Public Health Elder Abuse -
Preventin              Evaluation/Treatment of Victims October 27-      , 1985.


United States General Accounting Office , Report to the Chairman , Subcommittee on
Intergovernmental Relations and Human Resources , Committee on Government
Operations , House of Representatives An Aging Society Meeting the Needs of the
Elderly While Responding to Rising Federal Costs , (GAOIHRD- 86- 135) September
1986.

United States General Accounting Office , Briefing Report to the Chairman
Subcommittee on Health , Committee on Ways and Means , House of
Representatives Medicare: Preliminary Strategies for Assessing
(GAOIPEMD- 87- 15BR) July, 1987.
                                                                            Quali
                                                                         Care,
United States General Accounting Office , Fact Sheet for the Chairman
Subcommittee on Intergovernmental Relations and Human Resources , Committee
on Government Operations , House of Representatives Medicaid: Results of Certified
Fraud Control Units , (GAOIHRD- 87- 12FS) October , 1986.

United States General Accounting Office , Report to the Ranking Minority Member
Special Committee on Aging, U. S. Senate Medicare and Medicaid: Stronger
Enforcement of Nursing Home Requirements Needed, (GAOIHRD- 87- 113) July,
1987.

United States General Accounting Office , Report to the Secretary of Health and
Human Servces Medicaid: Addressing the Needs of Mentally Retarded Nursing
Home Residents (GAOIHRD- 87- 77) April , 1987.

Wolf, Rosalie S. and Karl A. PiIemer, 
 Working with abused elders: assessment.
advocacy. and intervention , University of Massachusetts Center on Aging, 1984.

Wolf, Rosalie S. , Karl PiIemer , and Michael A. Godkin Elder Abuse and Neglect:
Report from Three Model Projects , University of Massachusetts Center on Aging,
1984.
